TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Insufficient Controls Resulted in
                        Significant Delays in Processing
                     Tax-Exempt Bond Payments and Some
                       Unreliable Payment Posting Dates



                                         August 31, 2006

                              Reference Number: 2006-10-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
